No. 20-641
In the

Supreme Court of the United States
________________

LSP TRANSMISSION HOLDINGS, LLC,
Petitioner,
v.
KATIE SIEBEN, DAN M. LIPSCHULTZ, MATTHEW
SCHUERGER, JOHN TUMA, VALERIE MEANS, STEVE
KELLEY, ITC MIDWEST LLC, NORTHERN STATES
POWER COMPANY D/B/A XCEL ENERGY,
Respondents.
________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit
________________
REPLY BRIEF FOR PETITIONER
________________
CHARLES N. NAUEN
DAVID J. ZOLL
RACHEL A. KITZE COLLINS
LOCKRIDGE GRINDAL
NAUEN P.L.L.P.
100 Washington Ave. S.
Suite 2200
Minneapolis, MN 55401

PAUL D. CLEMENT
Counsel of Record
ERIN E. MURPHY
MICHAEL D. LIEBERMAN
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioner
February 10, 2021

TABLE OF CONTENTS
TABLE OF CONTENTS ............................................. i
TABLE OF AUTHORITIES ....................................... ii
REPLY BRIEF ............................................................ 1
I.

The Decision Below Is Wildly Out Of Step
With Decisions From This Court And Others .... 3
A. The
Eighth
Circuit’s
Misguided
Headquarters-Based Rule Contradicts
Decades of Precedent.................................... 3
B. The Eighth Circuit’s Novel Exception to
Commerce Clause Scrutiny for Laws
Regulating Electric Transmission Finds
No Support in Law or Logic ......................... 6

II. Respondents’ Efforts To Invoke FERC And
Defend The Result They Procured On
Alternative Grounds Are Unfounded ................. 8
III. This Highly Consequential Constitutional
Question Merits This Court’s Review ............... 11
CONCLUSION ......................................................... 13

ii
TABLE OF AUTHORITIES
Cases
C & A Carbone, Inc. v. Clarkstown,
511 U.S. 383 (1994).................................................. 5
Dean Milk Co. v. City of Madison,
340 U.S. 349 (1951).................................................. 3
General Motors Corp. v. Tracy,
519 U.S. 278 (1997).................................................. 1
Granholm v. Heald,
544 U.S. 460 (2005).............................................. 3, 4
West Lynn Creamery, Inc. v. Healy,
512 U.S. 186 (1994).................................................. 5
Wyoming v. Oklahoma,
502 U.S. 437 (1992)............................................ 5, 11
Other Authorities
136 FERC ¶61,051 (2011) ........................................ 11
147 FERC ¶61,127 (2014) .................................. 10, 11
150 FERC ¶61,037 (2015) ........................................ 10

REPLY BRIEF
Respondents’ opposition briefs are most notable
for what they do not (and cannot) deny. Respondents
do not deny that Minnesota’s law grants an express
preference to incumbent transmission owners with an
existing in-state presence. That is, after all, precisely
what the right of first refusal entails; it is the
antithesis of competition. Respondents do not deny
that Minnesota grants that in-state preference in an
interstate market. And respondents do not deny that
Minnesota’s protectionist law increases the costs of
new transmission projects yet passes the increased
costs on to residents of other states. Under settled
Commerce Clause principles, that is enough to doom
the law, which triggers a rule of virtual per se
invalidity, and to place the decision below—which
perceived no discrimination at all—in direct conflict
with cases from this Court and other circuits.
Respondents cannot even agree on how to
minimize that conflict. While the state denies that the
Eighth Circuit placed dispositive weight on the fact
that some favored in-state incumbents are
headquartered elsewhere, the industry respondents
admit that reality and fully embrace that nonsensical
rule, while failing to square it with this Court’s cases.
The state also denies that the Eighth Circuit relied on
the state’s police power, but in the same breath
invokes the state’s “traditional authority” over
transmission facilities. But there is no transmissionfacility or energy-sector exception to the Commerce
Clause. Indeed, it is telling that both respondents
invoke this Court’s decision in General Motors Corp. v.
Tracy, 519 U.S. 278 (1997), even though the Eighth

2
Circuit expressly disclaimed any reliance on Tracy,
App.11. Tracy has no application to efforts to favor instate incumbents in an interstate market, but the felt
need of respondents to invoke Tracy underscores both
the inadequacy of the Eighth Circuit’s reasoning and
the tendency of that decision to confuse coherent
Commerce Clause analysis in the energy sector.
Respondents devote surprising attention to
suggesting that FERC tolerates state ROFR laws,
while essentially ignoring that the United States filed
briefs in both courts below questioning the
constitutionality of Minnesota’s protectionist law.
Respondents manage to distort FERC’s position while
hopelessly conflating preemption and Commerce
Clause analysis. A facially discriminatory law like
Minnesota’s violates the Commerce Clause whether or
not it is also preempted.
Finally, respondents do not dispute the gravity of
the question presented. The opportunity to compete
to construct, own, and maintain billions of dollars in
interstate transmission lines is no small matter—as
evidenced by the fact that incumbents (including the
industry respondents) continue to vigorously lobby
state legislatures (often successfully) for protectionist
right-of-first-refusal laws. Respondents urge this
Court to let that protectionist race hit rock bottom
before intervening—which is hardly a surprise given
that they are the architects and beneficiaries of those
protectionist policies. But the stakes are too high, the
urgency too pronounced, and the error below too
obvious for this Court not to intervene.

3
I.

The Decision Below Is Wildly Out Of Step
With Decisions From This Court And Others.
A. The
Eighth
Circuit’s
Misguided
Headquarters-Based Rule Contradicts
Decades of Precedent.

According to the decision below, a state is free to
facially discriminate in favor of entities with an instate presence, so long as some of the in-state
beneficiaries are headquartered elsewhere. App.15.
That rule cannot be reconciled with decades of this
Court’s cases, Pet.22-25, with decisions from other
circuits, Pet.25-28, or with the reality that a
corporation with a substantial in-state physical
presence has local constituencies and access to instate lawmakers without regard to where it is
headquartered. Indeed, the state does not even try to
reconcile the headquarters-über-alles rule it
successfully pressed below with any of the decisions
discussed in the petition (most of which it ignores).
MN.Br.22.
Industry
respondents,
for
their
part,
enthusiastically embrace that rule. Ind.Br.31. But
they utterly fail to reconcile it with this Court’s cases,
as they acknowledge that this Court has repeatedly
invalidated laws that drew distinctions based on instate presence without regard to where the favored
parties were headquartered. Ind.Br.24; see, e.g.,
Granholm v. Heald, 544 U.S. 460 (2005); Dean Milk
Co. v. City of Madison, 340 U.S. 349 (1951); Pet.22-24.
They insist that there is no conflict because those
cases did not discuss where the affected entities were
headquartered. Ind.Br.24-25. But that is precisely
the point. This Court’s repeated omission of any

4
discussion of where favored in-state entities are
headquartered is not a product of a collective failure
to “issue spot.” Rather, it underscores that the issue
is irrelevant, because the Commerce Clause is
offended by discrimination on the basis of in-state
presence, full stop.
Respondents try to distinguish Granholm on the
ground that Minnesota does not deny sellers of
electricity
non-discriminatory
access
to
the
transmission lines that it reserves to in-state
incumbents. Ind.Br.22-23. That is cold comfort for
transmission providers like LSP, who seek to compete
on equal terms in the separate market to design, build,
and own regional transmission projects—which is
LSP’s sole business. Respondents’ argument is also a
non sequitur, for it has nothing to do with the reality
that Granholm’s analysis did not turn on where the
favored companies were headquartered. If it had,
then New York’s law would have survived, because
(like Minnesota’s law) it “applie[d] evenhandedly to all
entities, regardless of whether they [were New York]based entities or based elsewhere.” App.15. Instead,
this Court held that the law’s “restrictive in-state
presence requirement” violated the Commerce Clause
without even examining whether some favored instate wineries were owned by corporations
headquartered elsewhere. 544 U.S. at 474-75.
As to Dean Milk, respondents note only that
transmission facilities in Minnesota have to be built in
Minnesota. Ind.Br.23. But that truism does not
excuse Minnesota’s discriminatory method for
deciding who may build and operate them. Indeed,
efforts to reserve in-state opportunities to in-state

5
entities and efforts to keep out-of-state products from
entering the state are just two sides of the same coin.
The Commerce Clause prohibits both, and this Court
has not hesitated to condemn the former. See, e.g., C
& A Carbone, Inc. v. Clarkstown, 511 U.S. 383, 391
(1994).
Respondents try to dismiss petitioner’s
remaining cases as “inapposite,” Ind.Br.21, but the
distinctions they draw are illusory. The problem with
the laws in West Lynn Creamery, Inc. v. Healy, 512
U.S. 186 (1994), and Wyoming v. Oklahoma, 502 U.S.
437 (1992), is not that the preferences for in-state
products reflected misguided chauvinism, but that
they protected local interests from competition. Thus,
if where a favored entity is headquartered were really
relevant to whether that entity is “local,” then that
should have mattered just as much there as
respondents insist it matters here.
Respondents fare no better in attempting to
reconcile the decision below with decisions from the
First and Eleventh Circuits rejecting arguments that
discrimination based on in-state presence is
permissible as long as some of the in-state
beneficiaries are headquartered elsewhere. Pet.25-26.
Respondents note that neither case involved a facially
discriminatory law, but how that helps them is a
mystery. Both courts explicitly rejected the Eighth
Circuit’s headquarters-are-all-that-matters rule, and
facially discriminatory laws are more, not less,
problematic under the Commerce Clause. 1

1 Industry respondents wrongly suggest that the petition
argues only that Minnesota’s law is facially discriminatory.
Ind.Br.30 n.5.
The petition also argues that the law is

6
Respondents’ attempt to justify that rule are
equally flawed. They brand as “topsy-turvy” the
notion that a company headquartered outside of
Minnesota could be considered in-state for Commerce
Clause purposes.
Ind.Br.34.
But their feigned
befuddlement is hard to take seriously when
Minnesota’s law was introduced at their insistence,
supported by their testimony, and enacted thanks to
their connections with state legislators and other
decision-makers. Pre-existing in-state presence is
precisely what gives rise to both an interest in
protection from outside competition and the political
clout to procure protectionist legislation. As both this
Court and other circuits have recognized, it would be
truly topsy-turvy to ignore that based on where a
company happens to locate its headquarters building.
B. The Eighth Circuit’s Novel Exception to
Commerce Clause Scrutiny for Laws
Regulating Electric Transmission Finds
No Support in Law or Logic.
The Eighth Circuit erred just as profoundly by
refusing to apply ordinary Commerce Clause doctrine
because Minnesota’s right-of-first-refusal law was
enacted pursuant to the state’s “traditional authority”
over
“siting,
permitting,
and
constructing
transmission lines.” Pet.28. Of course, every state law
subject to Commerce Clause analysis is presumed to
be a product of the state’s police powers, and yet is just
as plainly verboten under the federal Constitution if it
discriminates against interstate commerce. Unable to
discriminatory in its effects, as the vast majority of favored
incumbents are headquartered in Minnesota. Pet.27-28.

7
defend a police-power exception to the prohibition on
such discrimination, respondents insist that the
Eighth Circuit invoked Minnesota’s police power only
as part of its discriminatory-purpose analysis.
Ind.Br.27 n.3; MN.Br.23. That is simply not true. The
decision below includes helpful headings clarifying
which argument the court was addressing at any given
time, and the court plainly invoked its flawed “police
power” reasoning in the “Facial Discrimination”
section. See App.11.
Respondents attempt to cast that reasoning as
consistent with this Court’s decision in Tracy. But as
they are forced to concede, MN.Br.16, the Eighth
Circuit went out of its way to disclaim any reliance on
Tracy, App.11. Respondents’ felt need to invoke Tracy
anyway illustrates both the indefensibility of the
Eighth Circuit’s actual reasoning and Tracy’s status
as the last redoubt for defenders of protectionist
legislation in the energy sector.
But Tracy provides no cover for efforts to
discriminate in the interstate energy markets, and the
fact that some courts (including the district court here)
read Tracy to broadly insulate the energy sector from
meaningful Commerce Clause analysis only
underscores the need for this Court’s review.
Respondents claim that Tracy’s “core insight” is that
courts should not apply the Commerce Clause to state
laws that “address important public services,”
Ind.Br.25, 27, or “relat[e] to the delivery of energy.”
MN.Br.16. But those descriptions improperly extend
Tracy well beyond its narrow compass. Tracy is
limited to direct regulation of captive retail markets
historically served by local monopolies. See Pet.31-33.

8
Minnesota’s law does not regulate the retail sale of
electricity to a captive market, or any other market in
which Congress has sanctioned a historical tradition
of state-authorized monopolies.
It regulates a
quintessentially interstate market that Congress long
ago gave FERC authority to regulate: the
transmission of electricity across state lines. Id.
Respondents invoke Tracy’s observation that
courts “lack the expertness and the institutional
resources necessary to predict the effects of judicial
intervention invalidating these kinds of laws.”
MN.Br.16; see Ind.Br.27-28. But even setting aside
that this case does not involve the same “kind of law”
as Tracy, as the United States noted below in
critiquing the district court’s reliance on Tracy,
respondents “present no economic argument that a
captive market for retail sales of electricity will be
harmed if outsiders were allowed to develop
transmission facilities.” CA8.US.Br.13. Indeed, most
states do not have a right-of-first-refusal law, and
“Minnesota makes no argument that those states have
jeopardized their capacity to serve retail markets.” Id.
Nothing in Tracy purported to overrule or even modify
this Court’s precedents invalidating discriminatory
state efforts to preserve interstate energy markets for
in-state entities. To the extent some lower courts have
accepted invitations to read Tracy that broadly, it only
enhances the need for plenary review.
II. Respondents’ Efforts To Invoke FERC And
Defend The Result They Procured On
Alternative Grounds Are Unfounded.
Perhaps the best indication of how irreconcilable
the Eighth Circuit’s decision is with settled Commerce

9
Clause jurisprudence is how little effort the state
makes to defend it as nondiscriminatory. Instead, the
state takes the curious tack of arguing only that the
discrimination is justified—i.e., that its law should
survive because it “was enacted to preserve a wellworking policy.” MN.Br.15; see id. at 19 (“The primary
purpose of the law was not protectionist but to
preserve the status quo.”); id. at 21 (distinguishing
cases that had “purely protectionist purposes”). Not
only is that wrong as a factual matter; it is entirely
beside the point. The Eighth Circuit did not hold that
Minnesota’s law is the rare one that survives the
virtually per se rule of invalidity. It held that the law
is not discriminatory at all. Minnesota barely defends
that indefensible reasoning, seemingly recognizing
that a right-of-first-refusal law is discriminatory to its
core.
Perhaps for that reason, the state emphasizes
that FERC used to impose a federal right-of-firstrefusal rule and declined to forbid state right-of-firstrefusal laws when it scrapped the federal rule as anticompetitive and counter-productive. But respondents’
efforts to invoke FERC not only hopelessly conflate
preemption principles and Commerce Clause
prohibitions, but conveniently ignore that the United
States voluntarily participated in both courts below—
and urged the district court to invalidate Minnesota’s
law as incompatible with the Commerce Clause. See
Dist.Ct.Dkt.70.
While Congress can authorize
discriminatory state laws, the United States made
clear beyond cavil below that “the federal government
has not authorized or approved” Minnesota’s law.
Pet.14-15. Thus, even if FERC actually favored state
right-of-first-refusal laws, or was even neutral about

10
them, that would not save those laws from Commerce
Clause scrutiny—a point that Commissioner Bay went
out of his way to emphasize. See 150 FERC ¶61,037
(2015) (Bay, Comm’r, concurring).
In all events, respondents’ claim that FERC has
blessed laws like Minnesota’s is revisionist history. In
reality, FERC views state right-of-first-refusal laws
exactly as it viewed the identical right-of-first-refusal
laws that FERC banned from ISO tariffs: as barriers
to the identification and evaluation of efficient and
cost-effective solutions to regional transmission needs.
Pet.7-8. 2
As the government explained below,
“concern for the health of the electric transmission
system should disfavor leaving in place a right of first
refusal law that favors incumbents.” Dist.Ct.Dkt.70
at 18; see also Wellinghoff.Br.6 (“Minnesota’s law and
others like it undermine the competition that the FPA
and Order No. 1000 sought to promote.”).
The state claims that “FERC found that state
[right-of-first-refusal] laws do not make the regional
transmission process ineffective.” MN.Br.8-9 (citing
147 FERC ¶61,127 (2014)). In reality, the cited
passage says the opposite: It laments the negative
effects of such state laws, but offers the silver lining
that things are still marginally better with Order No.
The state touts that its law “mirrors” those now-defunct
provisions. MN.Br.1. But the federal government has the ability
to regulate interstate markets under the Commerce Clause in
ways that states do not. Whatever FERC’s justification for
allowing right-of-first-refusal provisions before Order No. 1000,
it was not protecting in-state entities. That Minnesota enacted
its law after FERC determined that it was unnecessary for proper
regulation of the interstate grid reinforces that protectionism
underlies Minnesota’s action.
2

11
1000 because of the Order’s other reforms to the
regional transmission planning process. See 147
FERC ¶61,633 at ¶154.
To be sure, FERC did not expressly preempt state
right-of-first-refusal laws in Order No. 1000. But this
Court has repeatedly made clear that declining to
preempt state law does not authorize states to violate
the Commerce Clause. See Wyoming, 502 U.S. at 458.
The more relevant point is that FERC indisputably
views right-of-first-refusal laws as detrimental to
competition, the interstate grid, and consumers.
FERC found it “critical” to “act now” to eliminate
right-of-first-refusal provisions from ISO tariffs, 136
FERC ¶61,051 at ¶¶46, 81 (2011), and this Court’s
intervention to prevent states from nullifying FERC’s
efforts is no less critical. In all events, to the extent
the Court has any lingering doubts about where the
federal government stands despite the two briefs the
United States filed below, the Court can call for the
views of the Solicitor General. But the notion that
either FERC or the federal government more broadly
welcomes expressly discriminatory laws that raise
costs in an interstate market and force out-of-state
consumers to foot the bill is fanciful.
III. This Highly Consequential Constitutional
Question Merits This Court’s Review.
Respondents do not dispute the gravity of the
question presented. Nor could they, as their own
efforts to procure laws like Minnesota’s underscore the
obvious value of the opportunity to construct and
operate billions of dollars of new interstate
transmission lines. Respondents likewise do not
dispute that state right-of-first-refusal laws increase

12
the costs of new transmission by eliminating
competition while forcing ratepayers in neighboring
states that have to share those (inflated) costs. See,
e.g., Consumer.Br.25. That not only eliminates the
one possible political check on such protectionist
legislation (namely, that in-state consumers will get
tired of paying for the costs of protection), but also
incentivizes incumbents in neighboring states to lobby
for their own protectionist laws, accelerating the race
to the bottom.
Respondents do not deny that this is exactly what
is transpiring, but they attempt to convert that merits
vice into a certiorari-stage virtue by suggesting that
this Court deny review now while other courts address
these proliferating laws. But there is no reason to wait
for this protectionist race to hit rock bottom. 3 These
laws (and the decision below) already conflict with this
Court’s cases and decisions of other circuits
condemning even less obviously protectionist
measures. This Court should not wait to bring the
Eighth Circuit into line with decisions of this Court
and others, and to prevent states from interfering with
the orderly expansion of the interstate grid.

In the same breath that they urge percolation, respondents
insist that the Fifth Circuit’s forthcoming decision in NextEra
Energy Capital Holdings, Inc. v. D’Andrea, No. 20-50160, “cannot
produce a circuit split” because the Texas law there gives
incumbents not just a first-refusal right but exclusivity. But
while the difference is likely only theoretical (given the nature of
the opportunity, few, if any, in-state incumbents will ever decline
their right of first refusal), the degree of the in-state preference,
while arguably relevant under Pike balancing, see App.21, does
not dictate whether a preference is discriminatory.
3

13
CONCLUSION
This Court should grant the petition.
Respectfully submitted,
CHARLES N. NAUEN
DAVID J. ZOLL
RACHEL A. KITZE COLLINS
LOCKRIDGE GRINDAL
NAUEN P.L.L.P.
100 Washington Ave. S.
Suite 2200
Minneapolis, MN 55401

PAUL D. CLEMENT
Counsel of Record
ERIN E. MURPHY
MICHAEL D. LIEBERMAN
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioner

February 10, 2021

